No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES OF AMERICA, CROSS-PETITIONER
v.
COMMON GROUND HEALTHCARE COOPERATIVE,
ON BEHALF OF ITSELF AND ALL OTHERS
SIMILARLY SITUATED
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the CONDITIONAL CROSS-PETITION FOR A WRIT OF CERTIORARI, via e-mail and
first-class mail, postage prepaid, this 30TH day of April, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 1498 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on April 30, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
April 30, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition
to mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief.
If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory Case
Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

UNITED STATES OF AMERICA
COMMON GROUND HEALTHCARE COOPERATIVE,
ON BEHALF OF ITSELF AND ALL OTHERS
SIMILARLY SITUATED

KATHLEEN M. SULLIVAN
QUINN EMANUEL URQUHART & SULLIVAN LLP
865 S. Figueroa St.
10th Floor
Los Angeles, CA 90017
(202) 538-8000
katheensullivan@quinnemanuel.com
Stephen A. Swedlow
Quinn Emanuel Urquhart & Sullivan, LLP
500 West Madison Street
Chicago, IL 60661
(312) 705-7400
stephenswedlow@quinnemanuel.com

